   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




May 26, 2010

TO:            Carmen Nazario
               Assistant Secretary for Children and Families
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Administration for Children and Families Child Care Bureau—Internal Control
               Review of the Process for Awarding American Recovery and Reinvestment Act
               Funds (A-02-09-02010)


The attached final report provides the results of our review of internal controls over the process
for awarding American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery
Act), funds at the Administration for Children and Families (ACF) Child Care Bureau. This
review was part of the Office of Inspector General’s assessment of whether the Department of
Health and Human Services is using Recovery Act funds in accordance with legal and
administrative requirements and is meeting the accountability objectives defined by the Office of
Management and Budget.

The Recovery Act was signed into law by President Obama on February 17, 2009. The
Recovery Act includes measures to modernize our nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

Our objective was to assess the internal controls the Administration for Children and Families
Child Care Bureau has in place for awarding grants under the Recovery Act and to determine
whether the controls have been suitably designed.

The internal controls for awarding Recovery Act funds to grantees, as described by management,
are suitably designed to provide reasonable assurance that the specified internal control
objectives would be achieved if the described internal controls were complied with satisfactorily
Page 2 – Carmen Nazario


and applied as designed. However, we did not perform procedures to determine the operating
effectiveness of these internal controls. Accordingly, we express no opinion on the operating
effectiveness of any aspects of the ACF Child Care Bureau’s internal controls for awarding
Recovery Act funds, individually or in the aggregate.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-02-09-02010 in all correspondence.


Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




ADMINISTRATION FOR CHILDREN AND
 FAMILIES CHILD CARE BUREAU—
  INTERNAL CONTROL REVIEW OF
   THE PROCESS FOR AWARDING
    AMERICAN RECOVERY AND
    REINVESTMENT ACT FUNDS




                       Daniel R. Levinson
                        Inspector General

                           May 2010
                         A-02-09-02010
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

Every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for the Department of Health and
Human Services and its agencies are:

   •   Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
       manner.

   •   Recovery Act funds are transparent to the public, and the public benefits of these funds
       are reported clearly, accurately, and in a timely manner.

   •   Recovery Act funds are used for authorized purposes and every step is taken to prevent
       instances of fraud, error, and abuse.

   •   Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

   •   Projects funded under the Recovery Act ensure program goals are achieved, including
       specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget memorandum (April 3, 2009) updated
initial implementing Recovery Act guidance (February 18, 2009) and requires that all Federal
agencies and departments receiving Recovery Act funds must maintain strong internal controls
and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

Administration for Children and Families Child Care Bureau

The Recovery Act provides $2 billion in supplemental discretionary funding to the Child Care
and Development Fund (CCDF), which is administered by the Administration for Children and
Families (ACF), Office of Family Assistance’s Child Care Bureau. The funds are intended to
allow States to support child care services for more families whose children require care while
their parents are working, seeking employment, or receiving job training or education. The
funds, which will be awarded on a formula basis to States, territories, and tribes, will be used to
provide vouchers to families for child care or to provide access to care through contracts with
child care centers. In addition, a portion of the Recovery Act funds must be used to enhance
overall child care quality and availability.


                                                  i
OBJECTIVE

Our objective was to assess the internal controls the Child Care Bureau has in place for awarding
grants under the Recovery Act and to determine whether the controls have been suitably
designed.

SUMMARY OF RESULTS

The internal controls over the grant award process used to award Recovery Act funds, as
described by the Child Care Bureau management, are suitably designed to provide reasonable
assurance that the specified internal control objectives would be achieved if the described
internal controls were complied with satisfactorily and applied as designed.

This report is intended to provide a sufficient understanding of the Child Care Bureau’s grant
process for awarding Recovery Act funds to grantees as it pertains to internal control objectives
in the following internal control areas:

   •   authorization and approval: transactions and other significant events should be
       authorized and executed only by persons acting within the scope of their authority;

   •   accuracy, completeness, and validity: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted;

   •   physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals;

   •   error handling: errors detected at any stage of processing should receive prompt
       corrective action and be reported to the appropriate level of management; and

   •   segregation of duties: key duties and responsibilities need to be divided or segregated
       among different people to reduce the risk of error or fraud.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                                Page

INTRODUCTION.................................................................................................................1

          BACKGROUND ........................................................................................................1
              Recovery Act Requirements ...........................................................................1
              Administration for Children and Families Child Care Bureau .......................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2
               Objective .........................................................................................................2
               Scope ...............................................................................................................2
               Methodology ...................................................................................................3

RESULTS OF REVIEW ......................................................................................................3

          AUTHORIZATION AND APPROVAL ....................................................................4
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Grant Eligibility Requirements Are in Accordance
                With Laws, Regulations, Recovery Act Guidance, and Agency Policy ......4
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Information and Methods Used To Publicize the
                Program Are in Accordance With Laws, Regulations, Recovery Act
                Guidance, and Agency Policy ......................................................................4
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That Grant Application Processing Procedures Are
                Established and in Accordance With Laws, Regulations, Recovery
                Act Guidance, and Agency Policy ...............................................................5
              Internal Control Objective 4: Internal Controls Provide Reasonable
                Assurance That Grantee Procedures for Control, Use, and Reporting
                of Grant-Funded Operations Are in Accordance With Laws,
                Regulations, Recovery Act Guidance, and Agency Policy..........................5
              Internal Control Objective 5: Internal Controls Provide Reasonable
                Assurance That Grant Requirements Are Noted and in Place ....................5

          ACCURACY, COMPLETENESS AND VALIDITY................................................5
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Program Objectives Are Achieved in an
                Economical and Efficient Manner ...............................................................5
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Procedures Used to Process and Approve Grant
                Applications and Related Transactions Are Efficient ..................................6
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That the Agency Has Mechanisms in Place to Timely
                Award Grant and Contract Funds ................................................................6



                                                                    iii
          Internal Control Objective 4: Internal Controls Provide Reasonable
            Assurance That Only Those Grant Requests That Meet the Eligibility
            Requirements Are Approved .......................................................................6
          Internal Control Objective 5: Internal Controls Provide Reasonable
            Assurance That Grantee Records Are Periodically Substantiated
            and Evaluated ...............................................................................................6

PHYSICAL SAFEGUARDS AND SECURITY........................................................7
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Access to Grant and Accounting Records, Critical
       Forms, Processing Areas, and Processing Procedures Are Permitted
       Only in Accordance With Policy .................................................................7

ERROR HANDLING .................................................................................................7
    Internal Control Objective 1: Internal Controls Provide Reasonable
      Assurance That the Administration for Children and Families
      Accurately and Promptly Classifies, Summarizes, and Reports
      Adjustments to Grant Application Information and Records ......................7

SEGREGATION OF DUTIES ...................................................................................7
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Opportunities for an Individual to Both Cause and
       Conceal Errors Are Reduced .......................................................................7




                                                         iv
                                               INTRODUCTION

BACKGROUND

Recovery Act Requirements

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation's infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

According to the Department of Health and Human Services (HHS) Recovery Act Web site, 1
every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for HHS and its agencies are:

      •    Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
           manner.

      •    Recovery Act funds are transparent to the public, and the public benefits of these funds
           are reported clearly, accurately, and in a timely manner.

      •    Recovery Act funds are used for authorized purposes and every step is taken to prevent
           instances of fraud, error, and abuse.

      •    Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

      •    Projects funded under the Recovery Act ensure program goals are achieved, including
           specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget memorandum (April 3, 2009) updated
initial implementing Recovery Act guidance (February 18, 2009) and requires that all Federal
agencies and departments receiving Recovery Act funds must maintain strong internal controls
and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

Administration for Children and Families Child Care Bureau

The Recovery Act provided $2 billion in supplemental discretionary funding to the Child Care
and Development Fund (CCDF), which is administered by the Administration for Children and
Families (ACF), Office of Family Assistance’s Child Care Bureau. The funds are intended to
allow States to support child care services for more families whose children require care while
their parents are working, seeking employment, or receiving job training or education. The

1
    Accessed at http://www.hhs.gov/recovery/reports/index.html on October 29, 2009.


                                                         1
funds, which will be awarded on a formula basis to States, territories, and tribes, will be used to
provide vouchers to families for child care or to provide access to care through contracts with
child care centers. In addition, a portion of the Recovery Act funds must be used to enhance
overall child care quality and availability.

CCDF grants funds are awarded to and administered by a State, territory, or tribe’s lead agency. 2
On a biennial basis, grantees must submit a State plan to the Child Care Bureau for approval.
The State plan must include the goals that the grantee hopes to achieve and describe the
processes and procedures it will use to administer the program. The Child Care Bureau awards
block grant funds allotted to States and territories based on a formula that consists of three
factors: (1) population of children under age 5, (2) number of children who receive free or
reduced price school lunches under the National School Lunch Act, and (3) per capita income.
The formula used to allocate funds to tribes includes a fourth factor—the number of children
under age 13.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the internal controls the Child Care Bureau has in place for awarding
grants funded under the Recovery Act and to determine whether the controls have been suitably
designed.

Scope

We assessed the Child Care Bureau’s internal controls over the grant award process used to
award Recovery Act funds to support child care services for more families whose children
require care while they are working, seeking employment or receiving job training or education.
Our assessment was limited to determining whether existing internal controls adequately
achieved the control objectives for: (1) authorization; (2) accuracy, completeness, and validity;
(3) physical safeguards and security; (4) error handling; and (5) segregation of duties. We did
not perform procedures to determine the operating effectiveness of these internal controls.
Accordingly, we express no opinion on the operating effectiveness of any aspect of ACF’s
internal controls over the grant award process used to award Recovery Act funds, individually or
in the aggregate.

We performed fieldwork at ACF’s offices in Washington, D.C., from May through July 2009.




2
  The chief executive of a state or territory has the responsibility to designate a lead agency that will have the
responsibility and authority to administer and/or implement child care programs, directly or indirectly, through other
local agencies, whether public, private, non-profit, or for profit.



                                                          2
Methodology

The internal control environment represents the collective effect of a number of elements in
establishing, enhancing or mitigating the effectiveness of specific policies and procedures. To
gain an understanding of the Child Care Bureau’s internal control environment, we:

   •   reviewed relevant Federal laws and regulations, including Recovery Act guidance issued
       by the Office of Management and Budget, that the Child Care Bureau must follow for
       awarding grants;

   •   reviewed the Child Care Bureau’s organizational structure, including segregations of
       functional responsibilities, policy statements, operating manuals, and personnel policies;

   •   interviewed Child Care Bureau management as well as operations, administrative and
       other personnel responsible for developing, assuring adherence to and applying internal
       controls; and

   •   reviewed the grant award process for three grants funded with Recovery Act funds.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

The internal controls over the grant award process used to award Recovery Act funds, as
described by the Child Care Bureau management, are suitably designed to provide reasonable
assurance that the specified internal controls objectives would be achieved if the described
internal controls were complied with satisfactorily and applied as designed.

This report provides a sufficient understanding of the Child Care Bureau’s grant process for
awarding Recovery Act funds to grantees as it pertains to internal control objectives in the
following internal control areas:

   •   authorization and approval: transactions and other significant events should be
       authorized and executed only by persons acting within the scope of their authority;

   •   accuracy, completeness, and validity: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted;

   •   physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals;


                                                3
    •    error handling: errors detected at any stage of processing should receive prompt
         corrective action and be reported to the appropriate level of management; and

    •    segregation of duties: key duties and responsibilities need to be divided or segregated
         among different people to reduce the risk of error or fraud.

AUTHORIZATION AND APPROVAL

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Grant Eligibility Requirements Are in Accordance With Laws, Regulations, Recovery Act
Guidance, and Agency Policy

         •   ACF and HHS, Office of General Counsel management approve eligibility
             requirements used in evaluating grant eligibility.

         •   ACF and Office of General Counsel management review and approve grant “pre-
             prints” 3 prior to their being made available to the States, territories, and tribes.

         •   ACF management authorizes specific personnel to approve grant applications.
             Management designates which personnel can review and approve grant applications
             and provides training for these employees prior to the beginning of the grant cycle.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Information and Methods Used To Publicize the Program Are in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

         •   OMB implementing guidance for the Recovery Act requires agencies to provide
             information on the funding notifications made for all award types on
             http://www.recovery.gov with a link to the agency’s Web site.

         •   The Child Care Bureau issued a program instruction, dated April 9, 2009, notifying
             lead agencies that additional funding was available for fiscal year 2009 under the
             Recovery Act. A separate Notice of Grant Award to State, Territorial and Tribal
             Lead Agencies included the total amount of supplemental funds awarded under the
             Recovery Act.




3
The “pre-print” is the grant application (ACF-118) completed by States, territories, and tribes to be considered as a
CCDF grantee.


                                                          4
Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That
Grant Application Processing Procedures Are Established and in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

      •   The Child Care Bureau’s grant application processing procedures are defined and
          communicated in approved formal procedures manuals.

      •   The Child Care Bureau produces grants cycle memos, program instructions, and
          program guidance to grantees.

      •   Child Care Bureau management approves all changes to program procedures.

      •   Personnel authorized to approve grant applications are required to complete
          coursework to become certified as grants officers. In addition, the Child Care Bureau
          conducts bi-annual State plan training for all of its central and regional office staff
          involved in the grant application process.

      •   The Child Care Bureau does not have a competitive process for awarding mandatory
          grants. Instead, applicants submit a proposed State plan covering a specific period
          and agree to follow all Federal rules and regulations.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That
Grantee Procedures for Control, Use, and Reporting of Grant-Funded Operations Are in
Accordance With Laws, Regulations, Recovery Act Guidance, and Agency Policy

      •   Child Care Bureau grantees are required to meet the standards and requirements for
          financial management systems set forth or referenced in 45 CFR §§ 74.21 or 92.20, as
          applicable. Requirements for grantees’ financial and administrative systems are
          included in the ACF Grants Policy Statement.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grant Requirements Are Noted and in Place.

      •   Upon approval of a State plan, ACF issues a Notice of Grant Award to the grantee.
          In addition, the grantee is also provided with a copy of the terms and conditions of the
          grant. This document mandates and specifies the manner in which funds are to be
          used and the manner in which the grantee is to conduct business.

ACCURACY, COMPLETENESS, AND VALIDITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Program Objectives Are Achieved in an Economical and Efficient Manner

      •   ACF requires that individuals involved in the grant award process be sufficiently
          qualified and receive adequate training.



                                               5
      •   ACF uses a predefined template system to ensure that all program announcements
          follow OMB standards as well as all HHS and ACF policies.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Procedures Used to Process and Approve Grant Applications and Related Transactions
Are Efficient

      •   Grant applicants may submit either electronic or hard copy version of the Form
          ACF-118, Biennial Pre-Print. ACF uses several systems to track and fund grants,
          including Grants Administration, Tracking and Evaluation System (GATES), the
          Unified Financial Management System, and the Payment Management System.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That the
Agency Has Mechanisms in Place to Timely Award Grant and Contract Funds

      •   The Child Care Bureau released a program instruction, dated April 27, 2009, detailing
          the deadlines and effective dates for fiscal year 2009 State Plans. Pursuant to the
          program instruction, lead agencies must have submitted their plans to the Child Care
          Bureau review no later than July 1, 2009. Upon approval by the Child Care Bureau,
          plans became effective October 1, 2009.

      •   The Child Care Bureau limited CCDF funds distributed as a result of Recovery Act to
          existing grantees previously approved for funding under fiscal year 2009
          appropriations.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That Only
Those Grant Request That Meet Eligibility Requirements Should Be Approved

      •   ACF provides guidance to personnel involved in the State Plan review at the
          beginning of every grant cycle. Only applications that are fully complete and contain
          the necessary detail are approved for funding.

      •   Grant applications are required to be resubmitted on a biennial basis. Each lead
          agency planning to substantially change its program is required to submit an
          amendment to its State plan for approval.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grantee Records Are Periodically Substantiated and Evaluated

      •   Grantees expending more than $500,000 in a fiscal year are required to obtain audits
          of their organization’s operations annually from independent public accountants in
          accordance with OMB Circular A-133 and 45 CFR § 74.26.

      •   Grants officers and Child Care Bureau program officials use reports, correspondence
          from grantees, audit reports, site visits, and other available information to monitor



                                              6
          costs and performance results, identify potential problems, and identify areas where
          technical assistance or enforcement action may be necessary.

PHYSICAL SAFEGUARDS AND SECURITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Access to Grant and Accounting Records, Critical Forms, Processing Areas, and
Processing Procedures Are Permitted Only in Accordance With Policy

      •   Physical access to ACF facilities is electronically monitored. Access to the various
          computer systems used to track and manage grants are password protected.
          Supervisors determine the needs of personnel and restrict access to the various levels
          of information by use of permissions. External users do not have access to GATES.

ERROR HANDLING

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That the
Administration for Children and Families Accurately and Promptly Classifies,
Summarizes, and Reports Adjustments to Grant Application Information and Records

      •   Multiple levels of ACF personnel approve and allocate grants—a process intended to
          reduce the chance of error.

SEGREGATION OF DUTIES

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Opportunities for an Individual to Both Cause and Conceal Errors Are Reduced

      •   The Child Care Bureau’s process for reviewing, approving, allocating, and funding
          grants spans several offices, and requires approval from multiple management level
          personnel.

      •   Grants officers serve as the reception and distribution point for prior approval
          requests, progress reports, and other reports required by the terms and conditions of
          the Notice of Grant Award.

      •   Program officials are required to evaluate State Plan submissions while grants
          officers determine compliance with policy, regulations, and guidelines.




                                               7
